CERTIFICATE OF SERVICE
I hereby certify under penalty of perjury that on this 24th day of May 2019, I caused to be placed
in the United States mail (first-class, postage prepaid), copy of Application for leave to file a
document in excess of word limit pursuant to Rule 33 (1) (d) to the Clerk of Court, addressed as
follows:

Alison S. Vicks
Trial Attorney
Commercial Litigation Branch
Civil Division
U.S. Department of Justice
P.O. Box 480
Ben Franklin Station
Washington, D.C. 20044

